Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





COMPARISON OF THIRD-QUARTER
 2006 AVERAGE SALES PRICES TO
AVERAGE MANUFACTURER PRICES:
     IMPACT ON MEDICARE
   REIMBURSEMENT FOR FIRST
        QUARTER 2007




                    Daniel R. Levinson

                     Inspector General 


                       July 2007

                     OEI-03-07-00140

                   Office of Inspector General
                                     http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement
and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the reports
also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties
on health care providers and litigates those actions within HHS. OCIG also represents OIG in
the global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
Δ   E X E C U T I V E                               S U M M A R Y


                  OBJECTIVE
                  1.	 To determine whether average sales prices (ASP) for individual
                      Medicare Part B prescription drugs exceeded average manufacturer
                      prices (AMP) by at least 5 percent during the third quarter of 2006.

                  2.	 To determine the impact of lowering reimbursement amounts for
                      drugs that meet the 5-percent threshold.


                  BACKGROUND
                  Since January 2005, Medicare Part B has been paying for most covered
                  drugs using a reimbursement methodology based on ASPs. Section
                  1847A(c) of the Social Security Act (the Act) defines an ASP as a
                  manufacturer’s sales of a drug to all purchasers in the United States in
                  a calendar quarter divided by the total number of units of the drug sold
                  by the manufacturer in that same quarter. The ASP is net of any price
                  concessions. Manufacturers report ASPs by national drug codes (NDC)
                  and must provide the Centers for Medicare & Medicaid Services (CMS)
                  with the ASP and volume of sales for each of their NDCs on a quarterly
                  basis.

                  Although manufacturers submit ASP data by NDCs, CMS does not
                  reimburse Medicare providers for drugs using NDCs. Instead, CMS
                  uses Healthcare Common Procedure Coding System (HCPCS) codes.
                  More than one NDC may meet the definition of a particular HCPCS
                  code; therefore, CMS uses NDC-level information submitted by the
                  manufacturers to calculate an ASP for each covered HCPCS code.
                  When CMS calculates payment amounts for HCPCS codes, it must
                  weight ASPs at the NDC level by the amount of the drug sold during the
                  quarter. Under the ASP pricing methodology, Medicare’s allowance for
                  most Part B drug codes is equal to 106 percent of the volume-weighted
                  ASPs for those HCPCS codes.

                  Section 1847A(d)(2)(B) of the Act mandates that the Office of Inspector
                  General (OIG) compare ASPs with AMPs. As defined in section
                  1927(k)(1) of the Act during the time period covered by our review, an
                  AMP was the average price paid to the manufacturer for the drug in the
                  United States by wholesalers for drugs distributed to the retail
                  pharmacy class of trade, minus customary prompt pay discounts. As
                  part of the Medicaid drug rebate program, manufacturers must provide
                  CMS with the AMP for each of their NDCs on a quarterly basis,
                  pursuant to section 1927(b)(3) of the Act. If OIG finds that the ASP for

OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS        i
E X E C U T I V E                        S U       M M A R Y


                   a drug exceeds the AMP by a certain threshold (currently 5 percent),
                   section 1847A(d)(3)(A) of the Act states that the Secretary of the
                   Department of Health and Human Services (the Secretary) may
                   disregard the ASP for the drug when setting reimbursement. Section
                   1847A(d)(3)(C) goes on to state “. . . the Inspector General shall inform
                   the Secretary (at such times as the Secretary may specify to carry out
                   this subparagraph) and the Secretary shall, effective as of the next
                   quarter, substitute for the amount of payment . . . the lesser of the
                   (i) widely available market price . . . (if any); or (ii) 103 percent of the
                   average manufacturer price . . . . ”

                   For this study, we obtained CMS’s ASP data from the third quarter of
                   2006, which were used to establish volume-weighted ASPs and
                   reimbursement amounts for the first quarter of 2007. We also obtained
                   CMS’s AMP data from the third quarter of 2006. We used these AMP
                   data to calculate volume-weighted AMPs using the same method that
                   CMS uses to calculate volume-weighted ASPs. Ultimately, we
                   compared volume-weighted ASPs to volume-weighted AMPs for
                   326 HCPCS codes and identified codes for which ASPs exceeded AMPs
                   by at least 5 percent.


                   FINDINGS
                   For 39 of 326 HCPCS codes reviewed, the volume-weighted ASP
                   exceeded the volume-weighted AMP by at least 5 percent. Based on
                   our analysis of data from the third quarter of 2006, 39 of the
                   326 HCPCS codes included in our review had an ASP that exceeded the
                   AMP by at least 5 percent. Of these 39 HCPCS codes, 12 were also
                   identified in a previous OIG report as having ASPs that exceeded AMPs
                   by at least 5 percent in the fourth quarter of 2005. Four of the twelve
                   also met the 5-percent threshold in OIG’s initial comparison of ASPs
                   and AMPs, which used data from the third quarter of 2004. In other
                   words, ASPs for these four drugs have exceeded AMPs by at least
                   5 percent in each of our three reports, dating back more than 2 years.

                   If reimbursement amounts for these 39 codes had been based on
                   103 percent of the AMP during the first quarter of 2007, we estimate
                   that Medicare expenditures would have been reduced by $13 million.
                   One of the thirty-nine HCPCS codes (J7620) accounted for over
                   60 percent of the $13 million. The ASP for this code also exceeded the
                   AMP by at least 5 percent in a previous OIG report comparing prices
                   from the fourth quarter of 2005.


 OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS           ii
E X E C U T I V E                        S U       M M A R Y 




                   RECOMMENDATION
                   This is OIG’s third review comparing ASPs and AMPs, and we
                   identified 39 HCPCS codes that are eligible for price adjustments under
                   authority of the Secretary. Of these 39 codes, 4 have met the threshold
                   for price adjustments in all three of OIG’s studies comparing ASPs and
                   AMPs. An additional eight HCPCS codes were previously eligible for
                   price adjustments as a result of OIG’s second report, which used data
                   from the fourth quarter of 2005.
                   We therefore recommend that CMS adjust Medicare reimbursement
                   amounts for drugs that meet the 5-percent threshold specified in section
                   1847A(d)(3) of the Act. CMS may want to specifically focus on those drugs
                   that, according to the three OIG reports, have ASPs that consistently meet
                   this threshold.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS expressed a desire to better understand the sources of fluctuating
                   differences between ASPs and AMPs, with the intent of developing a
                   process to adjust payment amounts based on the results of OIG’s pricing
                   comparisons. CMS would like to collaborate with OIG to minimize the
                   time lag between OIG analysis and the implementation of quarterly
                   ASP prices. To help ensure that ASP submissions are correct, CMS
                   suggests that OIG focus its activities on manufacturers of drugs whose
                   ASPs consistently differ from AMPs. CMS did not specify what steps it
                   will take to adjust Medicare reimbursement amounts for drugs that
                   meet the 5-percent threshold specified in section 1847A(d)(3) of the Act.

                   OIG acknowledges that manufacturers’ drug prices will inevitably
                   fluctuate to some extent. However, the difference between ASPs and
                   AMPs has not fluctuated considerably for 12 of the 39 HCPCS codes
                   identified in this report. Rather, these codes have been consistently
                   identified as having ASPs at or above the 5-percent threshold. OIG
                   continues to recommend that the Medicare reimbursement amounts for
                   these 12 codes, as well as the other codes identified in the report, be
                   adjusted pursuant to section 1847A(d)(3) of the Act. As in the past, OIG
                   will work with CMS to ensure that pricing comparison data are
                   available to the Agency in a timely manner. In addition, we will
                   consider CMS’s suggestion to focus our activities on manufacturers of
                   drugs whose ASPs consistently differ from AMPs.


 OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS       iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDING................................................... 9

                   Results of ASP to AMP Comparison. . . . . . . . . . . . . . . . . . . . . . . . . 9 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                   Agency Comments and Office of Inspector General Response . . . 11 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   A: 	Equation Used by CMS To Calculate Volume-Weighted 

                       ASPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                   B:	 Thirty-nine HCPCS Codes With an ASP That Exceeded the 

                       AMP by at Least 5 Percent . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


                   C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  1.	 To determine whether average sales prices (ASP) for individual
                      Medicare Part B prescription drugs exceeded average manufacturer
                      prices (AMP) by at least 5 percent during the third quarter of 2006.

                  2.	 To determine the impact of lowering reimbursement amounts for
                      drugs that meet the 5-percent threshold.


                  BACKGROUND
                  Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates
                  that the Office of Inspector General (OIG) compare ASPs with AMPs. If
                  OIG finds that the ASP for a drug exceeds the AMP by a certain
                  threshold (currently 5 percent), section 1847A(d)(3)(A) of the Act states
                  that the Secretary of the Department of Health and Human Services
                  (the Secretary) may disregard the ASP for the drug when setting
                  reimbursement. Section 1847A(d)(3)(C) of the Act goes on to state
                  “. . . the Inspector General shall inform the Secretary (at such times as
                  the Secretary may specify to carry out this subparagraph) and the
                  Secretary shall, effective as of the next quarter, substitute for the
                  amount of payment . . . the lesser of the (i) widely available market
                  price . . . (if any); or (ii) 103 percent of the average manufacturer
                  price . . . .”
                  Medicare Part B Coverage of Prescription Drugs
                  Medicare Part B covers only a limited number of outpatient prescription
                  drugs. Covered drugs include injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer
                  drugs and immunosuppressive drugs; drugs used in conjunction with
                  durable medical equipment; and some vaccines.
                  Medicare Part B Payments for Prescription Drugs
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  private companies, known as carriers, to process and pay Medicare
                  Part B claims, including those for prescription drugs. To obtain
                  reimbursement for covered outpatient prescription drugs, physicians
                  and suppliers submit claims to their carriers using procedure codes.
                  CMS established the Healthcare Common Procedure Coding System
                  (HCPCS) to provide a standardized coding system for describing the
                  specific items and services provided in the delivery of health care. In




OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS            1
I N T R O D        U C T             I O N


                    the case of prescription drugs, each HCPCS code defines the drug name
                    and dosage size but does not specify manufacturer or package size
                    information.

                    Medicare and its beneficiaries spent almost $10 billion for Part B drugs
                    in 2005.1 Although Medicare paid for almost 550 outpatient
                    prescription drug HCPCS codes that year, the majority of spending for
                    Part B drugs was concentrated on a relatively small subset of those
                    codes. In 2005, 53 codes represented 90 percent of the expenditures for
                    Part B drugs, with only 11 of these drugs representing half of the total
                    Part B drug expenditures.
                    Reimbursement Methodology for Part B Drugs and Biologicals
                    Since January 2005, Medicare Part B has been paying for most covered
                    drugs using a reimbursement methodology based on ASPs.2 Section
                    1847A(c) of the Act, as added by the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003, Public Law 108-173,
                    defines an ASP as a manufacturer’s sales of a drug to all purchasers in
                    the United States in a calendar quarter divided by the total number of
                    units of the drug sold by the manufacturer in that same quarter. The
                    ASP is net of any price concessions, such as volume discounts, prompt
                    pay discounts, cash discounts; free goods contingent on purchase
                    requirements; chargebacks; and rebates other than those obtained
                    through the Medicaid drug rebate program.3 Sales that are nominal in
                    amount are exempted from the ASP calculation, as are sales excluded
                    from the determination of “best price” in the Medicaid drug rebate
                    program.4,5
                    Manufacturers report ASPs by national drug codes (NDC), which are
                    11-digit identifiers that indicate the manufacturer of the drug, the
                    product dosage form, and the package size. Manufacturers must


                    1 At the time of this report, information regarding complete 2006 Part B drug expenditures 

                    was not yet available. Therefore, we used total expenditures from 2005. 

                    2 In 2004, the reimbursement amount for most covered drugs was based on 85 percent of 

                    the average wholesale price as published in national pricing compendia, such as the “Red

                    Book.” Prior to 2004, Medicare Part B reimbursed for covered drugs based on the lower of 

                    either the billed amount or 95 percent of the average wholesale price. 

                    3 Section 1847A(c)(3) of the Act. 

                    4 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available 

                    from the manufacturer during the rebate period to any wholesaler, retailer, provider, health

                    maintenance organization, nonprofit entity, or governmental entity within the United 

                    States, with certain exceptions. 

                    5 Section 1847A(c)(2) of the Act. 





 OEI-03-07-00140    C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                                    2
I N T R O D        U C T             I O N


                    provide CMS with the ASP and volume of sales for each NDC on a
                    quarterly basis, with submissions due 30 days after the close of each
                    quarter.6
                    Because Medicare Part B reimbursement for outpatient drugs is based
                    on HCPCS codes rather than NDCs, and more than one NDC may meet
                    the definition of a particular HCPCS code, CMS has developed a file
                    that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                    information in this crosswalk to calculate volume-weighted ASPs for
                    covered HCPCS codes.

                    Third-quarter 2006 ASP submissions from manufacturers served as the
                    basis for first-quarter 2007 Medicare allowances for most covered drug
                    codes. Under the ASP pricing methodology, the Medicare allowance for
                    most Part B drugs is equal to 106 percent of the ASP for the HCPCS
                    code. Medicare beneficiaries are responsible for 20 percent of this
                    amount in the form of coinsurance.
                    The Medicaid Drug Rebate Program and AMP
                    For Federal payment to be available for covered outpatient drugs
                    provided under Medicaid, sections 1927(a)(1) and (b)(1) of the Act
                    mandate that drug manufacturers enter into rebate agreements with
                    the Secretary and pay quarterly rebates to State Medicaid agencies.
                    Under these rebate agreements and pursuant to section 1927(b)(3) of
                    the Act, manufacturers must provide CMS with the AMP for each of
                    their NDCs on a quarterly basis, with submissions due 30 days after the
                    close of each quarter.7
                    As generally defined in section 1927(k)(1) of the Act, the AMP is the
                    average price paid to the manufacturer for the drug in the United
                    States by wholesalers for drugs distributed to the retail pharmacy class
                    of trade. Prior to the passage of the Deficit Reduction Act of 2005
                    (DRA), Public Law 109-171, manufacturers were required to deduct
                    customary prompt pay discounts when calculating AMPs.8 However,
                    section 6001(c)(1) of the DRA amended section 1927(k)(1) of the Act and
                    the AMP is now determined without regard to customary prompt pay



                    6 Section 1927(b)(3) of the Act. 

                    7 Pursuant to section 6001(b)(1)(A) of the DRA, manufacturers are also required to report 

                    AMPs on a monthly basis as of January 2007. Drug manufacturers will continue to report

                    quarterly AMP data in addition to their monthly submissions. 

                    8 Section 1927(k)(1) of the Act. 





 OEI-03-07-00140    C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                                3
I N T R O D        U C T             I O N


                    discounts. CMS has instructed manufacturers to exclude customary
                    prompt pay discounts from their AMP calculations as of January 2007. 9
                    The AMP is calculated as a weighted average of prices for all of a
                    manufacturer’s package sizes of a drug sold during a given quarter and
                    is reported for the lowest identifiable quantity of the drug
                    (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule).
                    Office of Inspector General’s Monitoring of ASP and AMP
                    In April 2006, OIG released the first of its reports comparing ASPs to
                    AMPs. That report, entitled “Monitoring Medicare Part B Drug Prices:
                    A Comparison of Average Sales Prices to Average Manufacturer Prices”
                    (OEI-03-04-00430), identified 51 HCPCS codes with ASPs that exceeded
                    AMPs by at least 5 percent in the third quarter of 2004. Given that
                    OIG’s review was conducted using data submitted during the initial
                    implementation phase of the ASP methodology, CMS opted not to take
                    action in response to OIG’s findings.

                    Three months later, OIG released a second report comparing ASPs to
                    AMPs, entitled “Comparison of Fourth Quarter 2005 Average Sales
                    Prices to Average Manufacturer Prices: Impact on Medicare
                    Reimbursement for Second Quarter 2006” (OEI-03-06-00370).
                    According to this follow-up study, which used data from the fourth
                    quarter of 2005, 46 of 341 HCPCS codes had ASPs that exceeded AMPs
                    by at least 5 percent. Twenty of these forty-six codes had also met the
                    5-percent threshold in OIG’s initial pricing comparison of third-quarter
                    2004 ASPs and AMPs.

                    To date, CMS has not made any adjustments to Part B drug
                    reimbursement as a result of the two OIG reports comparing ASPs and
                    AMPs. In commenting on OIG’s initial report, CMS acknowledged the
                    Secretary’s authority to adjust ASP payment limits when certain
                    conditions are met. However, CMS stated that other issues should be
                    considered before making any price reductions, including the timing and
                    frequency of pricing comparisons, stabilization of ASP reporting, the
                    effective date and duration of rate substitution, and the accuracy of ASP
                    and AMP data.




                    9 Medicaid Drug Rebate Program Bulletin for Participating Drug Manufacturers, Release
                    No. 76, December 15, 2006.



 OEI-03-07-00140    C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                          4
I N T R O D        U C T             I O N 





                    METHODOLOGY
                    We obtained from CMS NDC-level ASP data from the third quarter of
                    2006, which were used to establish Part B drug reimbursement
                    amounts for the first quarter of 2007. In addition, we obtained the file
                    that CMS used to crosswalk NDCs to their corresponding HCPCS codes.
                    Both the ASP data and the crosswalk file were updated as of December
                    2006. We also obtained AMP data from CMS for the third quarter of
                    2006. During the third quarter of 2006, manufacturers were required to
                    deduct customary prompt pay discounts when calculating both ASPs
                    and AMPs.
                    Calculation of Volume-Weighted Average Sales Price
                    As mentioned previously, Medicare does not base reimbursement for
                    covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS
                    uses ASP information submitted by manufacturers for each NDC to
                    calculate a volume-weighted ASP for each covered HCPCS code. When
                    calculating these volume-weighted ASPs, CMS includes only NDCs with
                    ASP submissions that are deemed valid. We did not examine the NDCs
                    that CMS opted to exclude from its calculation, nor did we verify the
                    accuracy of CMS’s crosswalk files.

                    As of December 2006, CMS had established prices for 514 HCPCS codes
                    based on the ASP reimbursement methodology.10 Reimbursement
                    amounts for the 514 HCPCS codes were based on ASP data for
                    3,160 NDCs.

                    To calculate the volume-weighted ASPs for these 514 codes, CMS used
                    an equation that involves the following variables: the ASP for the NDC
                    as reported by the manufacturer, the volume of sales for the NDC as
                    reported by the manufacturer, and the number of billing units in the
                    NDC as determined by CMS. The amount of the drug contained in an
                    NDC may differ from the amount of the drug specified by the HCPCS
                    code that providers use to bill Medicare. Therefore, the number of
                    billing units in an NDC describes the number of HCPCS code units that
                    are in that NDC. For instance, an NDC may contain a total of
                    10 milliliters of Drug A, but the corresponding HCPCS code may be
                    defined as only 5 milliliters of Drug A. In this case, there are two billing
                    units in the NDC. CMS calculates the number of billing units in each

                    10 Several Part B drugs, including certain vaccines and blood products, are not paid under
                    the ASP methodology.



 OEI-03-07-00140    C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                               5
I N T R O D        U C T             I O N


                    11-digit NDC when developing its crosswalk files. A more detailed
                    description of CMS’s method of calculating volume-weighted ASPs is
                    provided in Appendix A.
                    Analysis of Average Manufacturer Price Data
                    An AMP is reported for the lowest identifiable quantity of the drug
                    contained in the NDC (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule).
                    In contrast, an ASP is reported for the entire amount of the drug
                    contained in the NDC (e.g., for 50 milliliters, for 100 tablets). To ensure
                    that the AMP would be comparable to the ASP, it was necessary to
                    convert the AMP for each NDC so that it represented the total amount
                    of the drug contained in that NDC.
                    In making these conversions, we examined AMPs only for those
                    3,160 NDCs that CMS used in its calculation of volume-weighted ASPs
                    for the 514 codes. If AMP data were not available for one or more of
                    these NDCs, we excluded the corresponding HCPCS code from our
                    analysis. We excluded a total of 174 HCPCS codes using this
                    conservative approach. The remaining 340 HCPCS codes had AMP
                    data for every NDC that CMS used in its calculation of volume-weighted
                    ASPs. These 340 HCPCS codes represented 1,639 NDCs.

                    We then multiplied the AMPs for these 1,639 NDCs by the total amount
                    of the drug contained in each NDC, as identified by sources such as the
                    CMS crosswalk file, the “Red Book,” manufacturer Web sites, and the
                    Food and Drug Administration’s NDC directory. We will refer to the
                    resulting amounts as converted AMPs. For 19 NDCs, we could not
                    successfully identify the amount of the drug reflected by the ASP and
                    therefore could not calculate a converted AMP. These 19 NDCs were
                    crosswalked to 14 HCPCS codes. We did not include these 14 HCPCS
                    codes (161 NDCs) in our final analysis.

                    Using the converted AMPs for the remaining 1,478 NDCs, we then
                    calculated volume-weighted AMPs for each of the codes using the same
                    method that CMS uses to calculate volume-weighted ASPs. We
                    calculated volume-weighted AMPs for a total of 326 HCPCS codes. We
                    did not independently verify the accuracy of manufacturer-reported ASP
                    and AMP data.
                    Comparing Volume-Weighted ASPs to Volume-Weighted AMPs
                    For each of the 326 HCPCS codes included in our study, we then
                    compared the volume-weighted ASPs and AMPs and identified codes
                    with ASPs that exceeded AMPs by at least 5 percent.


 OEI-03-07-00140    C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS           6
I N T R O D        U C T             I O N


                    For those HCPCS codes that met or exceeded the 5-percent threshold,
                    we conducted a review of the associated NDCs to verify the accuracy of
                    the billing units information. According to our review, two of the codes
                    that met the 5-percent threshold had associated NDCs with potentially
                    inaccurate billing units.11 Given that volume-weighted ASPs and AMPs
                    were calculated using this billing unit information, we could not be
                    certain that the results for these two codes were correct. Therefore, we
                    did not include these two codes in our findings.

                    For the remaining HCPCS codes, we then estimated the monetary
                    impact of lowering reimbursement to 103 percent of the AMP.12 First,
                    we calculated 103 percent of the volume-weighted AMP and subtracted
                    this amount from the first-quarter 2007 reimbursement amount for the
                    HCPCS code, which is equal to 106 percent of the volume-weighted
                    ASP. To estimate the financial effect for the first quarter of 2007, we
                    then multiplied the difference by one-fourth of the number of services
                    that were allowed by Medicare for each HCPCS code in 2006, as
                    reported in CMS’s Part B Extract and Summary System (BESS).13 This
                    estimate assumes that the number of services that were allowed by
                    Medicare in 2006 remained consistent from one quarter to the next and
                    that there were no significant changes in utilization between 2006 and
                    2007.
                    Limitation
                    In a February 2006 report entitled “Calculation of Volume-Weighted
                    Average Sales Price for Medicare Part B Prescription Drugs”
                    (OEI-03-05-00310), OIG stated that CMS’s method for calculating the
                    volume-weighted ASP is incorrect because CMS does not use billing
                    units consistently throughout its equation. As a result of this finding,
                    OIG recommended that CMS change its calculation of volume-weighted

                    11 NDCs for these two codes had billing unit information in CMS’s crosswalk file that may
                     not have accurately reflected the number of billing units actually contained in the NDC.
                    12 Pursuant to section 1847A(d)(3) of the Act, if the ASP for a drug exceeds the AMP by at
                     least 5 percent, the Secretary has authority to disregard the ASP pricing methodology for
                     that drug and replace the payment amount for the drug code with the lesser of the widely
                     available market price for the drug (if any) or 103 percent of the AMP. For the purposes of
                     this study, we used 103 percent of the AMP to estimate the impact of lowering
                     reimbursement amounts. If widely available market prices had been available for these
                     drugs and lower than 103 percent of the AMP, the savings estimate presented in this
                     report would have been greater.
                    13 At the time of extraction, 2006 BESS data were only 66 percent complete. Therefore, to
                     estimate the number of services that would have been provided during the entirety of
                     2006, we multiplied the number of allowed services currently reported in BESS by 1.515.



 OEI-03-07-00140    C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                               7
I N T R O D        U C T             I O N 



                    ASPs. Although CMS indicated that it may consider altering the ASP
                    methodology, it has yet to do so.

                    OIG continues to believe that CMS calculates volume-weighted ASPs
                    incorrectly and that this incorrect calculation results in reimbursement
                    amounts that are inaccurate and inconsistent with the ASP payment
                    methodology set forth in section 1847A(b)(3) of the Act. However, to be
                    consistent with the payment methodology currently used by CMS, OIG
                    has opted to use CMS’s calculation method when comparing ASPs and
                    AMPs.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President=s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-07-00140    C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS       8
    Δ       F I N D I N G

     For 39 of 326 HCPCS codes reviewed,              Consistent with sections 1847A(d)(2)(B) and
   the volume-weighted ASP exceeded the               1847A(d)(3) of the Act, OIG compared ASPs
volume-weighted AMP by at least 5 percent             to AMPs to identify instances in which the
                                                      ASP for a particular drug exceeded the AMP
                          by a threshold of 5 percent. Thirty-nine of the three hundred and
                          twenty-six HCPCS codes (12 percent) included in our review met or
                          surpassed this 5-percent threshold in the third quarter of 2006. Of
                          these 39 HCPCS codes, 12 were also identified in a previous OIG report
                          as having ASPs that exceeded AMPs by at least 5 percent in the fourth
                          quarter of 2005.14 Four of the twelve also met the 5-percent threshold
                          in OIG’s initial comparison of ASPs and AMPs, which used data from
                          the third quarter of 2004.15 In other words, the ASPs for these four
                          drugs have exceeded the AMP by at least 5 percent in each of our three
                          reports, dating back more than 2 years. A list of all 39 HCPCS codes is
                          presented in Appendix B.

                          The table below describes the extent to which ASPs exceeded AMPs for
                          the 39 HCPCS codes. For 17 of the 39 codes, volume-weighted ASPs
                          exceeded volume-weighted AMPs by 20 percent or more, with ASPs for
                          6 of these exceeding AMPs by more than 60 percent.16
                          Table: Extent to Which ASPs Exceeded AMPs for 39 HCPCS Codes

                                                       Percentage Difference                  Number of
                                                       Between ASP and AMP                 HCPCS Codes
                                                       5%–9%                                         12
                                                       10%–19%                                       10
                                                       20%–29%                                        7
                                                       30%–39%                                        2
                                                       40%–49%                                        2
                                                       50%–59%                                        0
                                                       60%–69%                                        2
                                                       70%–79%                                        0
                                                       80%–89%                                        1
                                                       90%–99%                                        2
                                                       100% and above                                 1
                                                        Total                                        39
                                                    Source: OIG analysis of fourth-quarter 2006 ASP and AMP data, 2006.


                          14 “Comparison of Fourth-Quarter 2005 Average Sales Prices to Average Manufacturer 

                          Prices: Impact on Medicare Reimbursement for Second-Quarter 2006” (OEI-03-06-00370). 

                          15 “Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales Price to 

                          Average Manufacturer Price” (OEI-03-04-00430).                   

                          16 Because of the confidential nature of ASP data, OIG is not publicly providing the exact 

                          percentages for each of the 39 HCPCS codes. 




        OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                                  9
F   I N D I N G


                      Lowering reimbursement amounts for these 39 HCPCS codes to 103 percent
                      of the average manufacturer price would have reduced Medicare allowances
                      by an estimated $13 million in the first quarter of 2007
                      Sections 1847A(d)(3)(A) and (B) of the Act provide that the Secretary
                      may disregard the ASP pricing methodology for a drug with an ASP
                      that exceeds the AMP by at least 5 percent. Pursuant to section
                      1847A(d)(3)(C) of the Act, “. . . the Secretary shall, effective as of the
                      next quarter, substitute for the amount of payment . . . the lesser of the
                      (i) widely available market price . . . (if any); or (ii) 103 percent of the
                      average manufacturer price . . . . ”17 In this study, we identified
                      39 HCPCS codes that met or exceeded the 5-percent threshold specified
                      in the Act. If reimbursement amounts for these 39 codes were based on
                      103 percent of the AMP during the first quarter of 2007, we estimate
                      that Medicare expenditures would be reduced by $13 million in that
                      quarter.18
                      One of the thirty-nine HCPCS codes, J7620, accounted for over
                      60 percent of the $13 million. If the reimbursement amount for this one
                      code were based on 103 percent of the AMP during the first quarter of
                      2007, Medicare expenditures would be reduced by an estimated
                      $8 million. The ASP for this code also exceeded the AMP by at least
                      5 percent in a previous OIG report comparing prices from the fourth
                      quarter of 2005. Given that fourth-quarter 2005 ASPs were used to
                      establish second-quarter 2006 reimbursement amounts, the previous
                      report estimated that lowering reimbursement for J7620 to 103 percent
                      of AMP for the second quarter of 2006 would have reduced Medicare
                      expenditures by $6 million. As in this report, the estimated savings for
                      HCPCS code J7620 accounted for the largest single share of the total
                      savings for that quarter.




                      17 For the purposes of this study, we used 103 percent of the AMP to estimate the impact of
                      lowering reimbursement amounts. If widely available market prices had been available for
                      these drugs and lower than 103 percent of the AMP, the savings estimate presented in this
                      report would have been greater.
                      18 This savings estimate is based on one-fourth of the number of estimated services allowed
                      by Medicare for each HCPCS code in 2006. One HCPCS code, J8560, did not have any
                      allowances in 2006 according to the BESS data. Therefore, there were no estimated savings
                      for this code.



    OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                           10
Δ   R E C O M M E N D A T I O N

                  For the purpose of monitoring Medicare reimbursement amounts based
                  on ASPs and consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of
                  the Act, OIG compared ASPs to AMPs to identify instances in which the
                  ASP for a particular drug exceeded the AMP by a threshold of 5 percent.
                  This review is the third such comparison conducted by OIG, and we
                  identified 39 HCPCS codes that are eligible for price adjustments under
                  authority of the Secretary. Of these 39 codes, 4 have met the threshold
                  for price adjustments in all three of OIG’s studies comparing ASPs and
                  AMPs. An additional eight HCPCS codes were also previously eligible
                  for price adjustments as a result of OIG’s second report, which used
                  data from the fourth quarter of 2005.
                  We therefore recommend that CMS adjust Medicare reimbursement
                  amounts for drugs that meet the 5-percent threshold specified in section
                  1847A(d)(3) of the Act. CMS may want to specifically focus on those drugs
                  that, according to the three OIG reports, have ASPs that consistently meet
                  this threshold. In addition, we note that the results of our review are
                  based on data from the third quarter of 2006. However, the definition of
                  AMP changed in January 2007, such that AMPs are determined without
                  regard to customary prompt pay discounts. CMS should consider taking
                  this change into account when adjusting Medicare reimbursement
                  amounts.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  According to CMS, the results of this report imply that some fluctuation
                  in the difference between ASPs and AMPs is to be expected. CMS
                  expressed a desire to better understand the sources of such fluctuations,
                  with the intent of developing a process to adjust payment amounts
                  based on the results of OIG’s pricing comparisons. CMS would like to
                  collaborate with OIG to minimize the time lag between OIG analysis
                  and the implementation of quarterly ASP prices. To help ensure that
                  ASP submissions are correct, CMS suggests that OIG focus its activities
                  on manufacturers of drugs whose ASPs consistently differ from AMPs.
                  CMS did not specify what steps it will take to adjust Medicare
                  reimbursement amounts for drugs that meet the 5-percent threshold
                  specified in section 1847A(d)(3) of the Act. See Appendix C for the full
                  text of CMS’s comments.

                  Since the ASP pricing methodology was implemented in January 2005,
                  OIG has completed three studies comparing ASPs and AMPs, as


OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS       11
R   E C O        M M E N D A T                       I O N


                      mandated by sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act. To
                      date, CMS has made no payment reductions for HCPCS codes with
                      ASPs that meet the 5-percent threshold.

                      OIG acknowledges that manufacturers’ drug prices will inevitably
                      fluctuate to some extent. However, the difference between ASPs and
                      AMPs has not fluctuated considerably for 12 of the 39 HCPCS codes
                      identified in this report. Rather, these codes have been consistently
                      identified as having ASPs at or above the 5-percent threshold. OIG
                      continues to recommend that the Medicare reimbursement amounts for
                      these 12 codes, as well as the other codes identified in the report, be
                      adjusted pursuant to section 1847A(d)(3) of the Act. As in the past, OIG
                      will work with CMS to ensure that pricing comparison data are
                      available to the Agency in a timely manner. In addition, we will
                      consider CMS’s suggestion to focus our activities on manufacturers of
                      drugs whose ASPs consistently differ from AMPs.




    OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS       12
Δ     A P P E N D I X                               ~      A

    Equation Used by the Centers for Medicare & Medicaid Services to Calculate
    Volume-Weighted Average Sales Prices


       In the following equation, a “unit” is defined as the entire amount of the drug
       contained in the NDC:

                                                                ASP for NDC            * Number of NDCs Sold
        Volume-Weighted ASP                     Sum of
                                                             Billing Units in NDC
         for the Billing Unit of
             HCPCS Code          =
                                                                     Sum of Number of NDCs Sold




       CMS’s calculation of volume-weighted ASPs is discussed in greater detail in the OIG
       report, “Calculation of Volume-Weighted Average Sales Price for Medicare Part B
       Prescription Drugs” (OEI-03-05-00310). This report found that CMS’s method for
       calculating volume-weighted ASPs is incorrect because CMS does not use billing
       units consistently throughout its equation. Therefore, OIG recommended that CMS
       adopt an alternate method for calculating volume-weighted ASPs. Although CMS
       indicated that it may consider altering the ASP methodology, it has yet to do so.




OEI-03-07-00140       C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                           13
Δ   A P P E N D I X ~ B


     Thirty-nine HCPCS Codes With an ASP That Exceeded the AMP by at Least 5 Percent

       HCPCS Code     Short Description                                       HCPCS Code Dosage

       J0256          Alpha 1 proteinase inhibitor                            10 MG

       J0360**        Hydralazine hcl injection                               20 MG

       J0456          Azithromycin                                            500 MG

       J0610*         Calcium gluconate injection                             10 ML

       J0636          Inj calcitriol                                          0.1 MCG

       J0637          Caspofungin acetate                                     5 MG

       J0640*         Leucovorin calcium injection                            50 MG

       J0694*         Cefoxitin sodium injection                              1 GM

       J1110          Inj dihydroergotamine mesylt                            1 MG

       J1260          Dolasetron mesylate                                     10 MG

       J1364          Erythro lactobionate                                    500 MG

       J1752          Iron dextran 267 injection                              50 MG

       J1790          Droperidol injection                                    5 MG

       J1940          Furosemide injection                                    20 MG

       J1955          Inj levocarnitine                                       1 GM

       J2320          Nandrolone decanoate                                    50 MG

       J2321          Nandrolone decanoate                                    100 MG

       J2322          Nandrolone decanoate                                    200 MG

       J2545**        Pentamidine isethionte                                  300 MG

       J2680          Fluphenazine decanoate                                  25 MG

       J2700          Oxacillin sodium injection                              250 MG

       J2792          Rho(D) immune globulin h, sd                            100 IU

       J3010          Fentanyl citrate injection                              0.1 MG

       J3230          Chlorpromazine hcl injection                            50 MG

       J3410**        Hydroxyzine hcl injection                               25 MG

       J3470          Hyaluronidase injection                                 150 UNITS

       J3472          Ovine                                                   1000 USP UNITS

       J3475*         Inj magnesium sulfate                                   500 MG

       J7500          Azathioprine oral                                       50 MG

       J7501*         Azathioprine parenteral                                 100 MG

       J7608          Acetylcysteine inh sol u d                              1 GM

       J7620*         Albuterol ipratrop non-comp1                            2.5 MG/0.5 MG




OEI-03-07-00140     C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                14
A   P   P E N D          I X ~            B           



           HCPCS Code       Short Description                                       HCPCS Code Dosage

           J7631            Cromolyn sodium inh sol u d                             10 MG

           J8560            Etoposide oral                                          50 MG

           J9000*           Doxorubic hcl vl chemo                                  10 MG

           J9065            Inj cladribine                                          1 MG

           J9200            Floxuridine injection                                   500 MG

           J9214*           Interferon alfa-2b inj                                  1 MIL UNITS

           J9360**          Vinblastine sulfate inj                                 1 MG

         * 	 Codes were also identified in a previous OIG report as having ASPs that exceeded AMPs by at least 5 percent in
              the fourth quarter of 2005.
         ** 	 Codes were also identified in two previous OIG reports as having ASPs that exceeded AMPs by at least
              5 percent in both the fourth quarter of 2005 and the third quarter of 2004.


         Source: OIG analysis of third-quarter 2006 ASP and AMP data, 2006.




    OEI-03-07-00140       C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS                              15
Δ   A P P E N D I X                             ~      C

                                                    Agency Comments




OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS   16 

A   P   P E N D       I X            ~           C      





    OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS   17 

Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director of the Medicare and
                  Medicaid Prescription Drug Unit.

                  Lauren McNulty served as the team leader for this study. Central office
                  staff who contributed to this report include Linda Boone Abbott.




OEI-03-07-00140   C O M PA R I S O N   OF   THIRD-QUARTER 2006 ASPS   AND   AMPS     18
